The Inspector General
National Archives and Records Administration

                                     INDEPENDENT AUDITOR’S REPORT

We have audited the accompanying Consolidated Balance Sheets of the National Archives and Records
Administration (NARA) as of September 30, 2011 and 2010, and the related Statements of Net Cost,
Changes in Net Position, and Budgetary Resources (the last statement as restated for 2010) for the years
then ended. These financial statements are the responsibility of NARA management. Our responsibility
is to express an opinion on the financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States
of America; standards applicable to financial statement audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management and
Budget (OMB) audit guidance. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating overall financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of NARA as of September 30, 2011 and 2010, and its net cost, changes in net position,
and budgetary resources (the last as restated for 2010) for the years then ended, in conformity with
accounting principles generally accepted in the United States of America.

As discussed in Note 21 to the financial statements, the fiscal year (FY) 2010 Statement of Budgetary
Resources has been restated to correct a material misstatement related to the year-end revenue accrual
for unfilled customer orders. We previously issued our auditor’s report dated November 12, 2010, on
the FY 2010 financial statements. The section of our FY 2010 auditor’s report dealing with the FY 2010
Statement of Budgetary Resources should no longer be relied upon, as that statement was materially
misstated. Our FY 2010 auditor’s report is replaced by this report, which provides our opinion on the FY
2010 restated financial statements.

We also issued our report dated November 12, 2010, on internal control over financial reporting and
compliance with laws and regulations as of September 30, 2010. In that report, we stated that we did
not find any material weaknesses. In our FY 2011 audit, we determined that there was a material
weakness as of September 30, 2010. Our report on internal control for FY 2011 describes this material
weakness.

The information in Management’s Discussion and Analysis and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary
information required by accounting principles generally accepted in the United States of America. We
did not audit this information and, accordingly, we express no opinion on it. We did, however, compare

                                                    1


this information for consistency with the financial statements and discussed methods of measurement
and presentation with NARA officials. On the basis of this limited work, we found no material
inconsistencies between the financial statements and U.S. generally accepted accounting principles or
OMB financial reporting requirements.

Our audits were conducted for the purpose of forming an opinion on the consolidated financial
statements taken as a whole. The information in the Message from the Chief Financial Officer,
Performance Section, and Other Accompanying Information is presented for purposes of additional
analysis and is not required as part of the consolidated financial statements. This information has not
been subjected to auditing procedures and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we also issued two other reports dated November
14, 2011. The first report is on our consideration of NARA’s internal control over financial reporting and
compliance with laws and regulations. The second report is on our tests of NARA’s compliance with
certain provisions of laws and regulations and other matters. Those reports are an integral part of an
audit performed in accordance with Government Auditing Standards and should be read in conjunction
with this report in considering the results of our audits.

COTTON & COMPANY LLP




Colette Y. Wilson
Partner

Alexandria, Virginia
November 14, 2011




                                                     2


The Inspector General
National Archives and Records Administration

                           INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL

We have audited the financial statements of the National Archives and Records Administration (NARA)
as of September 30, 2011 and 2010 (as restated), and have issued our report thereon dated November
14, 2011. That report contained our unqualified opinion on the financial statements for fiscal year (FY)
2011 and on the restated financial statements for FY 2010. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) audit guidance.

NARA management is responsible for establishing, maintaining, and assessing internal control to provide
reasonable assurance that the broad control objectives of the Federal Managers’ Financial Integrity Act
are met. The objectives of internal control are as follows:

    •		 Financial reporting: Transactions are properly recorded, processed, and summarized to permit
        the preparation of financial statements in conformity with U.S. generally accepted accounting
        principles, and assets are safeguarded against loss from unauthorized acquisition, use, or
        disposition.
    •		 Compliance with laws and regulations: Transactions are executed in accordance with (1) laws
        governing the use of budget authority, (2) other laws and regulations that could have a direct
        and material effect on the financial statements, and (3) any other laws, regulations, and
        government-wide policies identified by OMB audit guidance.

In planning and performing our audits, we considered NARA’s internal control over financial reporting
and over compliance with laws and regulations. We did this as a basis for designing our procedures for
auditing the financial statements and not to express an opinion on internal control. Accordingly, we do
not express an opinion on internal control over financial reporting and over compliance with laws and
regulations.

Our consideration of internal control was for the limited purpose described in the previous paragraph.
Thus, it was not designed to identify all deficiencies in internal control that might be deficiencies,
significant deficiencies, or material weaknesses; therefore, there can be no assurance that all
deficiencies, significant deficiencies, or material weaknesses have been identified. As discussed below,
however, we identified a deficiency in internal control that we consider to be a material weakness.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination
                                                    1


of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of an entity's financial statements will not be prevented, or detected and corrected on a
timely basis. We consider the following deficiency in NARA's internal control to be a material weakness.

We issued our report dated November 12, 2010, on internal control over financial reporting and
compliance with laws and regulations as of September 30, 2010. In that report, we stated that we did
not identify any material weaknesses. In our FY 2011 audit, we determined that there was a material
weakness as of September 30, 2010. As a result of this material weakness, management failed to detect
an $11.3 million misstatement affecting the Statement of Budgetary Resources (SBR). The FY 2010 SBR
was restated, and the misstatement is described in Note 21 to the financial statements.

This material weakness as of September 30, 2010 is described below. This material weakness still exists
as of September 30, 2011.

Review of Manual Journal Entries

Management does not have an effective process for the analysis and review of manual, non-routine
journal entries, especially those made after the normal adjustment and review process. As a result,
misstatements to the financial statements might not be detected and corrected.

At the end of FY 2010, NARA’s Revolving Fund (BCR) made an error in recording a year-end accrual. An
incorrect methodology and posting logic was used and the BCR director did not detect or prevent the
error during the review and approval of the journal entry. Additional controls were not in place to detect
and prevent the error from being reported in the financial statements, as the Financial Reports Staff
(BCF), the organization responsible for preparing the financial statements, was not required to approve
the journal entry from BCR and did not review it as it was prepared and submitted after the normal
adjustment and review period. This journal entry contained erroneous postings that resulted in an
overstatement of Budgetary Resources and an understatement of Obligated Balances on the Statement
of Budgetary Resources in the amount of $11.3 million.

BCF discovered the FY 2010 error during the normal year-end closing and financial statement
preparation process for FY 2011. However, as of September 30, 2011, management had not developed
adequate control procedures regarding the review of manual journal entries prepared and submitted
subsequent to the normal adjustment period. Accordingly, we consider this weakness to be a material
weakness for FY 2011 as well.

Government Accountability Office’s (GAO) Internal Control Standards, GAO/AIMD-00-21.3.1 (11/99)
page 11 states:

    Control activities occur at all levels and functions of the entity. They include a wide range of
    diverse activities such as approvals, authorizations, verifications, reconciliations, performance
    reviews, maintenance of security, and the creation and maintenance of related records which
    provide evidence of execution of these activities as well as appropriate documentation.

We recommend that:

    1.		 BCF develop, document, and implement procedures that require the review and approval of all
         manual journal entries prepared and submitted during and after the normal adjustment period.
         In addition, management should communicate these procedures to all involved in the process.

                                                     2


    2.		 BCR, as well as other offices, thoroughly review the methodologies and supporting
         documentation for all journal entries approved and submitted for financial reporting throughout
         the year (as required by current procedures).

NARA’s management response to the material weakness identified in our report is included as Appendix
A to this report. We did not audit NARA’s response and, accordingly, we express no opinion on it.

STATUS OF PRIOR-YEAR RECOMMENDATIONS

We reviewed the status of NARA’s corrective actions with respect to the significant deficiency from the
prior-year report on internal control. Appendix B to this report provides details of the status of
recommendations.

In addition to the above, we noted certain matters involving internal control and its operation that will
be reported to NARA management in a separate letter. These include the remaining open items in
Appendix B.

Because of inherent limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may nevertheless occur and not be detected. We also caution that projecting our
evaluation to future periods is subject to the risk that controls may become inadequate because of
changes in conditions or that the degree of compliance with controls may deteriorate.

This report is intended solely for the information and use of NARA management, NARA Office of
Inspector General, the Government Accountability Office, OMB, the Congress of the United States, and
those who have read NARA’s financial statements, our report on those financial statements, and our
report on compliance with laws and regulations. This report is not intended to be and should not be
used by anyone other than those parties.

COTTON & COMPANY LLP




Colette Y. Wilson, CPA
Partner

Alexandria, Virginia
November 14, 2011




                                                    3


    APPENDIX A


MANAGEMENT COMMENT


     ~

     NATIONAL 

    ARCHIVES 

    ARCHIVIST oJthe
    UNITED STATES
    DAVID S. FERRIERO
         T    202.357.5900
         ~.   202.357.590 I
      dal'idfcrricro@/lllr'l·SOI'




   IONovember2011                                                ~
   To:                 Paul Brachfeld, Inspector General   A'kY
   From:               David S. Ferriero, Archivist of the Unled States
   Subject:            Management response to FY 2011 Audit Report

   Thank you for the opportunity to respond to your reports, Independent Auditor 's Report on
   Internal Control and Independent Auditor 's Report on Compliance with Laws and Regulations.

   NARA acknowledges the challenges identified in these reports and concurs in all recommendations of
   the independent auditor. We are disappointed with the new material weakness over financial reporting.
   NARA is instituting a broad range of measures which will strengthen internal controls over financial
   reporting. In particular, NARA is developing formal policies governing the review and approval of manual
   journal entries and assuring accountability for these adjustments, as recommended by the independent auditor.

   NARA will continue to work diligently to address the challenges identified in FY 2011, improve
   agency financial management, and ensure the accuracy and reliability of agency financial
   statements. I would like to thank the Office of Inspector General and Cotton & Company, LLP
   for their efforts and cooperation through the audit process.




 NATIONAL ARCHIVES                   alld
 RECORDS ADMINISTRATION 


700 PENNSYLVANIA AVENUE. NW 

WASHINGTON. DC 20408 0001 

      1\'\\'11'.   arch il'cs.gol'
                 APPENDIX B


NATIONAL ARCHIVES AND RECORDS ADMINISTRATION


   STATUS OF PRIOR-YEAR RECOMMENDATIONS


             SEPTEMBER 30, 2011


                                                APPENDIX B


                               NATIONAL ARCHIVES AND RECORDS ADMINISTRATION


                                  STATUS OF PRIOR-YEAR RECOMMENDATIONS


                                            SEPTEMBER 30, 2011



 We present below the status of recommendations from our prior-year reports on internal control over
 financial reporting and compliance with laws and regulations. In our FY 2010 report, we found a
 significant deficiency related to various components of NARA’s information technology. NARA has made
 progress in this area, and some of our recommendations have been closed. Recommendations that
 remain open are considered deficiencies and will be reported in a separate letter to management.

Condition/Audit Area and Recommendations                           Status as of September 30, 2011
Access Controls
1. Implement a process for managing NARANet accounts                            Open
     that:
      a) Ensures all accounts are tied to a specific
           individual who has the responsibility for
           managing the account and determining the
           ongoing need for non-login accounts.
      b) Ensures all access and privileges of terminated
           employees are promptly removed.
2. Implement a process for managing RCPBS accounts
     that:
      a) Requires a recertification of all system accounts                      Closed
           at least annually.
      b) Implements a more restrictive password age                             Open
           control that is consistent with requirements for
           federal information systems.
3. Ensure that supervisors receive training in their exit                       Open
     clearance process responsibilities, including alerting
     applicable personnel when employees and
     contractors under their supervision no longer require
     access.
4. Develop and implement policies and procedures that                           Open
     prohibit RCPBS users from having multiple accounts as
     well as the ability to enter and approve their own
     transactions.
5.		 Require a record of logged-in users creating account                       Open
     requests to show that requests are being generated
     by a supervisor, not the user.
6.		 Implement the following recommendations related to                         Open
     NARANet logging and monitoring:
      a)		 Reconfigure audit settings within the NARANet
           Novell environment to log group membership add
           and delete activities.
      b)		 Continue with the implementation of Netforensic
           and, once in place, ensure that procedures exist
           for identifying key events that will be alerted to
Condition/Audit Area and Recommendations                        Status as of September 30, 2011
          and reviewed by management on a periodic basis.
     c)		 Continue with efforts to audit account creations,


          deletions, and modifications within OFAS and


          develop standard procedures for regularly


          reviewing and monitoring application audit logs.


     d)		 Enable logging of all events within RCPBS,


          required by NARA IT Security Methodology for


          Audit and Accountability, and develop standard


          procedures for regularly reviewing and


          monitoring application activity logs.


7.		 Assign one individual to the shared OFAS account, or                   Closed
     split responsibilities of the shared account to
     additional administrator accounts, to allow
     accountability of administrator activities to be
     established.
Contingency Planning
8.		 Update the contingency and disaster recovery plans                     Closed
     for RCPBS to reflect current operating conditions.
Configuration Management
9.		 Improve upon NARA’s current router and firewall                        Closed
     build process by updating their standard configuration
     file to be based on NIST-approved security checklists
     for router and firewall platforms and devices in use by
     NARA. We also recommend that the final standard
     configuration be documented and compared against
     devices to monitor for configuration compliance on a
     periodic basis.
Security Management
10. Complete risk assessments for all NARANet                               Closed
    components.
11. Finalize and approve security plans for all NARANet                     Closed
    components.
12. Certify each NARANet component, then certify and                        Open
    accredit the entire NARANet general support system.
13. Implement policies and procedures which require the		                   Closed
    completion of security and awareness training before
    being granted access to NARA information systems.
The Inspector General
National Archives and Records Administration

                       INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE AND OTHER MATTERS

We have audited the financial statements of the National Archives and Records Administration (NARA)
as of September 30, 2011 and 2010 (as restated), and have issued our report thereon dated November
14, 2011. That report contained our unqualified opinion on the financial statements for fiscal year (FY)
2011 and on the restated financial statements for FY 2010. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) audit guidance.

NARA management is responsible for complying with laws and regulations applicable to NARA. As part
of obtaining reasonable assurance about whether NARA’s financial statements are free of material
misstatements, we performed tests of NARA’s compliance with certain provisions of laws and
regulations that have a direct and material effect on the financial statements. We did not test
compliance with all laws and regulations applicable to NARA. We limited our tests of compliance to
those provisions of laws and regulations that OMB audit guidance requires we test if deemed applicable
to the financial statements for the fiscal year ended September 30, 2011. We caution that
noncompliance may have occurred and may not have been detected by these tests, and that such
testing may not be sufficient for other purposes.

Our tests of compliance with laws and regulations described in the preceding paragraph disclosed no
instances of material noncompliance that are required to be reported under Government Auditing
Standards and OMB audit guidance. Providing an opinion on compliance with certain provisions of laws
and regulations was not, however, an objective of our audit: accordingly we do not express such an
opinion.

This report is intended solely for the information and use of NARA management, NARA Office of
Inspector General, the Government Accountability Office, OMB, the Congress of the United States, and
those who have read NARA’s financial statements, our report on those financial statements, and our
report on internal control. This report is not intended to be and should not be used by anyone other
than those parties.

COTTON & COMPANY LLP




Colette Y. Wilson
Partner

Alexandria, Virginia
November 14, 2011
